J19/2019'

TmeFiling Rejected Notification - CA Supreme Court, Case No. S250724 - Yahoo Mail

TrueFiling Rejected Notification - CA Supreme Court, Case No. S250724
tmefilingadmin@truefHiftg.eom <truefi(ingadmin@tniefiling.copi»

pnOI 19S9@yalloo..../CA Supreme Cour...
, Aug 21,2018 at 1055 AM

To: pn0119S9@yalioo.com

The Supreme Court of California has rejected your document filed Into Case No. S250724, Prasad vs Narayan.
Filing Details
Rejection Reason: TZHANG: Rejected | The court has considered your application for relief from default and
petition for review. Your application for relief front default has been denied. (Cal. Rules of Court, rule
8.60(d).) The court has directed that the petition for review be returned to you.
Filing Rejected: 8/21/2018 6:51 AM
Document Type: PETITION FOR REVIEW
Filing Name: Petition for review
Filed By: Narayan. Prakash (Pro Per)
From: Prakash Narayan
Thank you,
The Supreme Court of California

■tit* this email was sent from an unattended email mailbox - replies to this email will be rejected
About TrueFiling
TrueFiling is a 24x7 Web-based e-file and e-service solution for courts, law firms and self-represented filers. It expedites justice by
reducing paper handling and travel time and improves the court's internal processes through electronic workflow.
Home page:
Copyright 2016, ImageSoft, Inc.
Home page:
CONFIDENTIALITY NOTICE: This message and any attached documents may contain confidential information from TrueFiling. The information is
intended only for the use of the Individual or entity named above. If the reader of this message is not the intended recipient, or an
Employee or agent responsible for the delivery of this message to the intended recipient, the reader Is hereby notified that any
dissemination, distribution or copying of this message or of any attached documents, or the taking of any action or omission to take any
action in reliance on the contents of this message or of any attached documents, is strictly prohibited. If you have received this
communication in error, please delete the message immediately. Thank you.

https://mail.yahoo.eom/b/folders/119/messages/AHDjP5FyKqmPW3xSCgmc80PLttw? .src=ym&reason-myc&fold0rType=USER&showlmag0s=true&o...

1/1

